                                                          United States Department of State
                                                          and the Broadcasting Board of Governors

                                                          Office oj Inspector General




                                                                          AUG - 8 1011

MEMORANDUM

TO:           RMlCFO ­ James L. Milene                 ()

FROM:         0101010 - Harold    w. GeiSe~          Y!
SUBJECT:      Report on Audit o/Expenditures From the Department olStafe
              Emergencies in the Diplomatic and Consular Service Appropriation
              (AUDIFM-I I-29)

The subject report is attached for your review and action. As the action office for
Recommendations I through 7, please provide your response to the report and information on
actions taken or planned for the seven recommendations within 30 days of the date of this
memorandum. Actions take or planned are subject to followup and reporting in accordance with
the attached compliance response information.

The Office of Inspector General (DIG) incorporated your comments as appropriate within the
body of the report and included them in their entirety as Appendix B.

DIG appreciates the cooperation and assistance provided by your staff during this audit. If you
have any questions, please contact Evelyn R. KJemstine, Assistant Inspector General for Audits,
at (202) 663-0372 or Gayle Voshell, Division Director, at (703) 284-2681 or by email at
voshellg@state.gov.

Attachments: As stated.

cc: RMlCFO ­ (b) (6)
                                      UNCLASSIFIED


                  United States Department of State

               and the Broadcasting Board of Governors

                      Office of Inspector General


                                    Office of Audits



                  Audit of Expenditures From 

              the Department of State Emergencies

     in the Diplomatic and Consular Service Appropriation 




                                      AUD/FM-11-29

                                       August 2011





                                         Important Notice
This report is intended solely for the official use of the Department of State or the Broadcasting
Board of Governors or any agency or organization receiving a copy directly from the Office of
Inspector General. No secondary distribution may be made, in whole or in part, outside the
Department of State or the Broadcasting Board of Governors, by them or by other agencies or
organizations, without prior authorization by the Inspector General. Public availability of the
document will be determined by the Inspector General under the U.S. Code, 5 U.S.C. 552.




                                      UNCLASSIFIED

    <<< Tear out



                    Spotlight: Audit of Expenditures From the
                    Department of State Emergencies in the Diplomatic
                    and Consular Service Appropriation
                    Office of Inspector General
                    AUD/FM-11-29

Why OIG Conducted This Audit                             Objective
In order to meet unforeseen emergencies arising          OIG conducted this audit to determine whether
in the diplomatic and consular service, Congress         expenditures from the K Fund were made in
provides the Department of State (Department)            compliance with applicable provisions of the
funding through the Emergencies in the                   U. S. Code.
Diplomatic and Consular Service appropriation
(K Fund). In accordance with the U. S. Code,
the Office of Inspector General is required to
conduct periodic audits of the Department’s
emergency expenditures. During FYs 2008 and
2009, the Department expended approximately
$34.3 million from this fund.
What OIG Determined
In general, OIG found that K Fund expenditures were made in accordance with the Fund’s authorizing
legislation. However, OIG identified expenditures totaling $723,378 that were not made in accordance
with the authorizing legislation. These exceptions included expenditures incurred during Presidential
delegation visits to posts, for postage, a retirement function, a kitchen upgrade, and overseas
representation activities. In addition to the unallowable expenditures, the K Fund office was unable to
provide sufficient supporting documentation for 32 additional expenditures, totaling $734,840. OIG also
found that the quarterly reports on K Fund expenditures to Congress did not include expenditures that
bureaus and offices incurred but did not submit to the K Fund office in a timely manner. In addition, the
K Fund office had inadvertently reported certain evacuation expenditures twice.
OIG Recommendations and Management Response
OIG made recommendations that the Bureau for Resource Management (RM) should change its policy
for providing funds to posts for expenditures related to Presidential delegations and develop guidance for
postage-related and domestic representation activities of the Secretary of State; that the Department
should obtain a legal opinion on the allowability of expenditures related to the kitchen upgrade and
overseas representation activities; that the Department should require posts to provide an itemized list,
including receipts, of post-incurred evacuation expenses to the K Fund office; and that the K Fund office
should develop a process to ensure that the Congressional reports accurately represent all expenditures,
including expenditures reported to the K Fund office after the quarterly report was submitted to Congress,
and all types of evacuation expenditures. RM responded that it will review whether new policies should
be implemented related to Presidential delegations and certain postage expenditures. RM did not indicate
whether it agreed or disagreed that a policy for domestic representation events hosted by the Secretary of
State was needed or that it should obtain legal guidance on the kitchen upgrade and the use of the K Fund
for overseas representation events. RM did not concur that posts should provide the K Fund with
supporting documentation for post-incurred evacuation expenditures, stating that an itemized list was
sufficient. However, RM agreed that written guidance should be established to ensure that expenditures
received after reports have been sent to Congress are reported and that an agreement on reporting
evacuation expenditures should be formalized.


    <<< Tear out
                                                           United States Departme nt of State
                                                           and the Broadcasting Board of Governors

                                                           Office of Inspector General




                                         PREFACE


     This report was prepared by the Office oflnspector General (OIG) pursuant to the Inspector
General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980, as
amended . It is one of a series of audit, inspection, investigative, and special reports prepared by
01G periodically as part of its responsibility to promote effective management, accountability
and positive change in the Department of State and the Broadcasting Board of Governors.

     This report is the result of an assessment orthe strengths and weaknesses of the office, post,
or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

      The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective,
efficient, and/or economical operations.

     I express my appreciation to all of those who contributed to the preparation of this report.




                                            Harold W. Geisel
                                            Deputy Inspector General
                                    UNCLASSIFIED



Acronyms

A Bureau  Bureau of Administration
A/OPR/FMS Bureau of Administration, Deputy Assistant Secretary for Operations, Office of
            Facilities Management Services
FAM       Foreign Affairs Manual
GFMS      Global Financial Management System
K Fund    Emergencies in the Diplomatic and Consular Service appropriation
OIG       Office of Inspector General
RM        Bureau of Resource Management
RM/CFO    Assistant Secretary for Resource Management and Chief Financial Officer
RM/GFS    Bureau of Resource Management, Global Financial Services
S/CPR     Office of the Secretary of State, Chief of Protocol
SEA       subsistence expense allowance
U.S.C.    United States Code




                                    UNCLASSIFIED

                                                          UNCLASSIFIED



                                                        Table of Contents

Section                                                                                                                                  Page


Executive Summary.........................................................................................................................1


Background…. .................................................................................................................................2


Objective……. .................................................................................................................................6


Audit Results ..................................................................................................................................7

       Finding A. Expenditures Were Generally Allowable and Supported .................................7

       Finding B. Reports to Congress Did Not Include All Expenditures .................................19


List of Recommendations ..............................................................................................................22


Appendices

      A. Scope and Methodology................................................................................................23

      B. Bureau of Resource Management Response.................................................................31


Major Contributors to This Report ................................................................................................33





                                                          UNCLASSIFIED

                                              UNCLASSIFIED


                                          Executive Summary
        In order to meet unforeseen emergencies arising in the diplomatic and consular service,
such as evacuating U.S. Government employees from posts in Egypt and Libya or paying
rewards for information on terrorist activities, Congress provides the Department of State
(Department) funding through the Emergencies in the Diplomatic and Consular Service
appropriation (K Fund). The Department may make expenditures from the K Fund for activities
that serve to further the realization of foreign policy objectives; are a matter of urgency to
implement; and, when appropriate, require confidentiality in the best interests of the conduct of
foreign policy. During FYs 2008 and 2009, the Department expended approximately
$34.3 million from this fund.

       In accordance with the United States Code (U.S.C.), 1 which requires that the Office of
Inspector General (OIG) conduct periodic audits of the Department’s emergency expenditures,
OIG conducted this audit to determine whether expenditures from the K Fund were made in
compliance with applicable provisions of the Code. This audit was also performed in order to
provide Government managers, Congress, and the public with information regarding the
Department’s accountability for the Fund expenditures.

       In general, OIG found that K Fund expenditures were made in accordance with the
Fund’s authorizing legislation. However, OIG questioned whether expenditures totaling
$723,378 had been made in accordance with the authorizing legislation, including expenditures
incurred during Presidential delegation visits to posts, for postage, a retirement function, an
upgrade to the kitchen that services the Diplomatic Reception Rooms, and overseas
representation activities. In addition to these expenditures, the K Fund office was unable to
provide sufficient supporting documentation for 32 additional expenditures, totaling $734,840.
OIG found that the quarterly reports on K Fund expenditures to Congress did not include
expenditures that bureaus and offices had incurred but had not submitted to the K Fund office in
a timely manner. In addition, the K Fund office had inadvertently reported certain evacuation
expenditures twice.

         Although OIG did not identify significant issues related to the allowability of K Fund
expenditures, it identified concerns with the internal control over these expenditures. The K
Fund legislation is broadly written, and the Department concluded that the K Fund expenditures
related to the kitchen upgrade and overseas representation activities were appropriate. However,
no legal opinion was available on the allowability of these expenditures. Although the K Fund
office has developed guidance for some K Fund activities, guidance for additional K Fund
activities is needed. In addition, the K Fund office does not receive supporting documentation
for all expenditures, even when existing guidelines require posts to provide documentation
within a certain time period, such as for Presidential delegations. OIG also found that the
Department had not developed a process to ensure that the Congressional reports represented all
expenditures, including expenditures reported to the K Fund office after the quarterly report was
submitted.



1
    22 U.S.C. § 2671, “Emergency Expenditures.”

                                                   1
                                              UNCLASSIFIED
                                        UNCLASSIFIED



Management Comments

        In its July 2011 draft of this report provided to the Bureau of Resource Management
(RM), OIG made seven recommendations to improve controls over K Fund expenditures.
Specifically, OIG recommended that RM change its policy for providing funds to posts for
expenditures related to Presidential delegations and develop guidance for postage-related and
domestic representation activities of the Secretary of State (Secretary); that the Department
obtain a legal opinion on the allowability of expenditures related to the kitchen upgrade and
overseas representation activities; that the Department require posts to provide an itemized list,
including receipts, of post-incurred evacuation expenses to the K Fund office; and that the K
Fund office develop a process to ensure that the Congressional reports accurately represent all
expenditures, including expenditures reported to the K Fund office after the quarterly report was
submitted to Congress, and all types of evacuation expenditures.

        In its July 27, 2011, response (see Appendix B), RM stated that it will “review” whether
new policies should be implemented related to Presidential delegations and certain postage
expenditures. RM did not indicate whether it agreed or disagreed that a policy for domestic
representation events hosted by the Secretary was needed or that it should obtain legal guidance
on the kitchen upgrade and the use of the K Fund for overseas representation events. RM did
“not concur with the requirement” that posts should provide the K Fund with supporting
documentation for post-incurred evacuation expenditures, stating that “an itemized list is
sufficient.” However, RM did concur with the recommendations that written guidance should be
established to ensure that expenditures received after reports have been sent to Congress are
reported and that an agreement on reporting evacuation expenditures should be formalized.

         Based on RM’s response, OIG considers five of the seven recommendations unresolved.
Because the K Fund office is the steward of the K Fund, it is essential for the Department to
implement policies to ensure that the K Fund office receives sufficient supporting documentation
for overseas expenditures related to Presidential delegations and evacuations. In addition, clear
guidance is necessary for users of the K Fund to understand the use of the K Fund for domestic
activities related to the Secretary, such as postage and representation events. In addition, the
Department needs to obtain legal opinions on the use of the K Fund for the kitchen upgrade and
overseas representation events.

        OIG considers the two recommendations with which RM agreed resolved because RM
indicated that steps are being taken to implement the recommendations. However, these
recommendations will remain open until evidence is provided that RM has fully implemented the
recommendations.

                                         Background

       The Department faces numerous challenges in its conduct of foreign affairs in over 195
countries around the world, such as the recent events in Egypt and Libya that required the
Department to take immediate action to evacuate American citizens safely, including U.S.
Government employees and private citizens. To meet unforeseen emergencies such as these,
Congress provides the Department funding through the K Fund appropriation.

                                             2
                                        UNCLASSIFIED
                                              UNCLASSIFIED


        The Department may make expenditures from the K Fund for activities that serve to
further the realization of foreign policy objectives; are a matter of urgency to implement; and,
when appropriate, require confidentiality in the best interests of the conduct of foreign policy.
Within these broad categories, the K Fund may be used to fund a wide range of activities. In
addition to evacuating U.S. citizens when their lives are endangered by war, civil unrest, or
natural disaster, the K Fund provides funding for certain travel-related expenditures, including
paying for some of the travel of the President and the Vice President to a foreign country, the
travel of delegations representing the President at foreign dignitary inaugurations and funerals,
and the travel of the Secretary both within and outside the United States.

        The K Fund is also used to pay the costs of certain Government functions, including both
official representation functions of the Secretary and other Department principal officers. For
instance, the K Fund was used to pay for a dinner hosted by the Secretary for the U.S.–China
Strategic and Economic Dialogue. In addition, the K Fund may be used for official functions
outside the United States that are not otherwise covered by amounts appropriated for
representation allowances.

        Other allowable expenditures from the K Fund include loans made for destitute U.S.
citizens in other countries to return to the United States; the costs associated with visits by
foreign chiefs of state or heads of government; gifts of nominal value given by the President,
Vice President, or Secretary to a foreign dignitary; and the costs of investigations and
apprehension of groups or individuals involved in the fraudulent issuance of U.S. passports and
visas. The K Fund is also used for the payment of rewards provided for information related to
international terrorism, the costs of certain narcotics-related programs, and the costs associated
with specific war crimes tribunals.

Managing and Funding K Fund Activities

       The responsibility for managing the K Fund has been delegated to the Assistant Secretary
for Resource Management and Chief Financial Officer (RM/CFO). The K Fund Manager, a
program officer in RM, reports directly to the RM/CFO and is responsible for allocating funds to
K Fund programs, ensuring that the funds are spent for allowable purposes, and maintaining
records of K Fund expenditures.

        Although the K Fund office has overall responsibility for the Fund, a decentralized group
of bureaus and offices is responsible for the routine activities allowed by the K Fund authorizing
legislation such as the following:

    •	 Evacuation Payments – The K Fund office, RM’s Global Financial Services (RM/GFS),
       and posts share responsibility for evacuations. The evacuating post provides travel
       orders 2 to evacuees using the fiscal data provided by the K Fund office. RM/GFS is
       responsible for processing the travel orders and for maintaining the documentation to
       support these payments. Posts are also authorized to use funds for expenditures incurred
       to support the evacuation, such as arranging transportation to take employees from an

2
  The travel orders cover subsistence expense allowance expenditures, including expenses such as evacuees’ meals,
lodging, and transportation.

                                                   3
                                              UNCLASSIFIED
                                                UNCLASSIFIED


         embassy to the airport. Further, the K Fund office funds certain types of evacuation
         expenditures directly, such as chartering an aircraft to transport employees from a post
         being evacuated.
      •	 Presidential Delegations – The Office of the Secretary of State, Chief of Protocol
         (S/CPR), is responsible for planning and making the detailed arrangements for the
         Presidential delegations and maintaining support for the K Fund expenditures related to
         Presidential delegations.
      •	 Representation – Each bureau or office that receives representation funds is responsible
         for planning and arranging its official representation activities. These fund recipients are
         required to submit supporting documentation to the K Fund office for each expenditure
         quarterly.
      •	 Presidential and Vice Presidential Travel – The Presidential Travel Support unit in the
         Bureau of Administration (A Bureau) is the principal liaison with the White House and
         is responsible for providing all logistical and administrative arrangements to support
         trips abroad made by the President and Vice President and their spouses. The Financial
         Management Division in the A Bureau maintains the support for the related K Fund
         expenditures.

        Bureaus and offices process and account for K Fund transactions differently. Some
expenditures, such as rewards, costs associated with Presidential delegations, and subsistence
expense allowance (SEA) payments for evacuees, are recorded in and accounted for by the
Department’s domestic accounting system, the Global Financial Management System (GFMS).
Some K Fund expenditures are made directly by the K Fund office using a master checking
account. For example, some offices that make limited use of the K Fund will submit invoices to
the K Fund office for payment. For other K Fund expenditures, such as official gifts, the K Fund
office transfers funds from the master checking account to subsidiary checking accounts 3
maintained for K Fund activities by other bureaus and offices. These bureaus and offices are
responsible for managing the funds in their checking accounts and for reporting all K Fund
expenditures to the K Fund Manager quarterly.

        Expenditures for each K Fund expenditure category in FYs 2008 and 2009 are shown in
Table 1. (The scope of this audit, which covered the period of FYs 2008 and 2009, is detailed
further in Appendix A.)




3
    The Department maintains 54 checking accounts for K Fund activities, including the master checking account.

                                                     4
                                                UNCLASSIFIED
                                              UNCLASSIFIED


               Table 1. K Fund Expenditures for FYs 2008 and 2009
                                                           FY 2008                      FY 2009
                  Expenditure Category                   Expenditures                 Expenditures
               General Entertainment                           $1,334,964                   $1,803,001
               Representation                                  $1,003,103                   $1,066,997
               Official Visits                                   $648,464                   $1,112,997
               Official Gifts                                    $845,376                     $964,619
               Presidential Delegations                          $432,046                     $388,166
               Secretary and Deputy
               Secretary’s Travel                                    $66,546                      $30,879
               Presidential, Vice Presidential,
               and Congressional Travel                            $344,808                     $132,312
               Evacuation Payments                               $1,688,221                   $1,049,419
               Special Investigations                             $220,231                     $136,011
               Confidential Payments                               $460,458                    $185,135
               Rewards Program                                  $10,857,050                   $9,497,643
               Total                                            $17,901,267                  $16,367,178
                 Source: Prepared by OIG based on data provided by the K Fund office.
                 Note: Totals may not add because of rounding.

Reporting K Fund Activities to Congress

       The Department is required 4 to prepare and submit a quarterly report on K Fund
expenditures to certain Congressional committees 5 within 30 days after the end of each quarter.
This report should include a list of all K Fund expenditures made during that quarter, including
the amount paid, the payee, and the purpose of the expenditure.

        The K Fund office obtains information from various sources to prepare this quarterly
report. The K Fund office maintains documentation to track expenditures made directly by the K
Fund office. For expenditures made by bureaus and offices, the K Fund office requires that the
bureaus submit information on all expenditures made during the quarter no later than 15 days
after the close of each quarter. The K Fund office has developed a database (Representation
Reports database) to capture representation and travel-related K Fund expenditures. Each bureau
or office with this type of K Fund expenditure is responsible for entering its expenditures into the
database quarterly. In addition, the K Fund office obtains information from GFMS for
expenditures tracked in the accounting system, such as certain types of evacuation expenditures
and some rewards.




4
 22 U.S.C. § 2680, “Appropriations for State Department; Information to Congressional Committees.”
5
 Specifically, the reports are required to be provided to the Senate Committees on Foreign Relations and
Appropriations and the House of Representatives Committees on Foreign Affairs and Appropriations.

                                                   5
                                              UNCLASSIFIED
                                      UNCLASSIFIED



                                          Objective

       The primary objective of this audit was to determine whether K Fund expenditures were
made in compliance with applicable provisions of the United States Code (part 22, section 2671).




                                           6
                                      UNCLASSIFIED
                                            UNCLASSIFIED



                                             Audit Results


Finding A. Expenditures Were Generally Allowable and Supported
        In general, OIG found that K Fund expenditures were made in accordance with the
K Fund’s authorizing legislation. 6 However, OIG questioned whether expenditures totaling
$723,378 had been made in accordance with the authorizing legislation, including expenditures
incurred during Presidential delegation visits, for postage, a retirement function, an upgrade to
the kitchen that services the Diplomatic Reception Rooms, and overseas representation activities.
In addition, the K Fund office was unable to provide sufficient supporting documentation for 32
expenditures, totaling $734,840. For 29 of these expenditures, totaling $734,355, OIG could not
determine whether the expenditures were for allowable purposes. However, for three of these
expenditures, totaling $485, OIG ascertained that the expenditures were for allowable purposes.
(OIG’s sampling methodology and results are detailed in Appendix A.)

        The questioned items identified by OIG occurred for various reasons. The K Fund office
does not receive support for all expenditures, even when required by existing guidelines. Also,
although the K Fund office has developed guidance for some K Fund activities since the last OIG
audit report issued in 2000, 7 additional guidance is needed. Specifically, the Department should
develop guidance on postage and domestic representation events hosted by the Secretary for
S/CPR, and a policy requiring that some type of agreed-upon supporting documentation for post-
incurred evacuation expenditures should be provided to the K Fund office. Some of the
questioned items identified by OIG, specifically the items related to funds used for a retirement
function, the kitchen upgrade, and overseas representation costs, occurred because the broad
nature of the K Fund legislation has allowed for differing interpretations of allowability. Unless
users of the K Fund comply with established policies, the K Fund office will be unable to ensure
that the funds are used for allowable items.

      OIG did not identify significant issues related to the allowability of K Fund expenditures.
However, the lack of adequate supporting documentation increases the likelihood that improper
payments could be made.

Allowable and Supported K Fund Expenditures

        OIG tested a sample of K Fund expenditures from FYs 2008 and 2009. Of expenditures
totaling $34,268,445, OIG tested 288 expenditures, totaling $24,542,516 and representing 71.6
percent of the total amount, to ensure that the expenditures complied with the authorizing
legislation. OIG found that of the 288 expenditures, 244 expenditures, totaling $23,792,722,
were allowable and supported by adequate documentation provided by the Department. The
number and dollar amount of the expenditures tested and the expenditures with no exceptions are
shown in Table 2.



6
 22 U.S.C. § 2671.
7
 Operations and Expenditures From the Appropriation for Emergencies in the Diplomatic and Consular Service
(00-FM-011, Mar. 2000).

                                                 7
                                            UNCLASSIFIED
                                             UNCLASSIFIED



   Table 2. Expenditures Found To Be Allowable and Supported
                           Number of           Amount of
     Expenditure          Expenditures        Expenditures       Number With           Amount With
       Category              Tested              Tested          No Exceptions         No Exceptions
  General
  Entertainment                        33            $91,371                    27              $88,155
  Representation                        5             $1,689                     5               $1,689
  Official Visits                      70           $646,884                    67             $642,287
  Official Gifts                       17            $38,475                    16              $38,243
  Presidential
  Delegations                          51           $205,442                    44             $184,680
  Secretary and
  Deputy
  Secretary’s Travel                     9             $6,116                     6               $5,631
  Presidential, Vice
  Presidential, and
  Congressional
  Travel                               54           $460,206                    49             $455,230
  Evacuation
  Payments                             24        $2,737,640                      5           $2,022,113
  Rewards Program                      25       $20,354,693                     25          $20,354,693
  Total                               288       $24,542,516                    244          $23,792,722
    Source: Prepared by OIG based on the results of its testing of K Fund expenditures.

    Note: Totals may not add because of rounding; additionally, a single expenditure chosen for testing may have

    allowable, unallowable, and/or unsupported portions, since an individual expenditure may have multiple

    invoices.


Unallowable Expenditures Identified During Testing

        Although the majority of the expenditures tested were allowable, OIG identified
expenditures totaling $14,378 that it concluded were not allowable under the K Fund authorizing
legislation. Specifically, posts inappropriately charged, to the K Fund, some expenditures that
they had incurred during Presidential delegation visits. In addition, the Department had spent
funds for postage and shipping and had incurred an expenditure related to a retirement function.
Finally, OIG found two other small miscellaneous transactions that it concluded should not have
been paid using the K Fund. Information on the expenditures that OIG concluded were
unallowable by expenditure category is provided in Table 3.




                                                  8
                                             UNCLASSIFIED
                                             UNCLASSIFIED



       Table 3. Unallowable Expenditures for FYs 2008 and 2009*

                                                   Number

            Expenditure Category
                 Unallowable          Amount Unallowable
      General Entertainment
         Postage                                                  4                       $1,489
         Retirement Function                                      1                       $1,500
         Other Miscellaneous                                      1                        $226
      Official Visits
         Postage                                                  3                       $4,396
      Official Gifts
         Postage                                                  1                         $232
      Presidential Delegations                                    5                       $6,519
      Presidential, Vice Presidential, and
      Congressional Travel
         Other Miscellaneous                                      1                         $14
      Total                                                      16                     $14,378
       *This table includes only expenditure categories with unallowable expenditures.

       Source: Prepared by OIG based on the results of its testing of K Fund expenditures.

       Note: Totals may not add because of rounding; additionally, a single expenditure chosen for testing may

       have allowable, unallowable, and/or unsupported portions, since an individual expenditure may have 

       multiple invoices.


       Presidential Delegation Expenditures

        During its testing of sample items, OIG identified expenditures of $6,519 related to
Presidential delegations that it concluded were unallowable. For instance, the K Fund paid $298
for renting white suits (required for attending a Presidential inauguration) for personnel who
were not official members of the Presidential delegation. The K Fund also paid $5,209 for
overtime related to one Presidential delegation visit to individuals who were not authorized to be
paid for overtime work from the K Fund.

        Before Presidential delegation visits, S/CPR provides a cable to posts that includes a list
of delegation members and instructions for post expenditures made in connection with a
Presidential delegation visit. The cable provides information on the types of authorized
expenditures that the posts can incur, such as the number of computers that can be used and
which embassy staff can be paid for working overtime, as well as notification that any other
expenditures or events that have not been pre-approved by S/CPR will not be covered. None of
the expenditures that OIG concluded were unallowed were authorized by the cables, and S/CPR
did not separately approve these expenditures.

        To ensure that the posts are using the K Fund for authorized delegation-related
expenditures, S/CPR requires posts to “provide an itemized list of all expenses with original
receipts . . . not more than 30 days after the visit.” Obtaining the supporting documentation
would allow S/CPR staff to review expenditures and ensure that posts complied with the
instructions. However, according to K Fund and S/CPR officials, posts do not always provide
the support for their expenditures despite the clear instructions. An S/CPR budget analyst said
that she sends followup emails to posts if she does not receive the itemized list and receipts. In

                                                  9
                                             UNCLASSIFIED
                                              UNCLASSIFIED


some cases, she has had to follow up with a post two or three times before the post provides the
information. Because of these followup efforts by S/CPR, the K Fund Manager said that posts
have recently been providing more information. However, the supporting documentation for the
items OIG identified as unallowable was not provided to either the K Fund office or to S/CPR
until after OIG had requested the information as part of the audit.

        Based on the issues it identified during its review of supporting documentation for
sampled Presidential delegations expenditures, OIG determined that the certifying officers at
posts did not always ensure that all expenditures were made in accordance with the instructions
provided by S/CPR or with K Fund authorizing legislation. The issues OIG identified reinforce
the need for posts to comply with the requirement to provide supporting documentation to
S/CPR. S/CPR and the K Fund office staff have the knowledge needed to determine whether
expenditures comply with the K Fund authorizing legislation. In addition, the K Fund office is
responsible for reporting K Fund expenditures to Congress.

        Postage

        During its testing of sample items, OIG found that S/CPR had spent $6,117 from the K
Fund for postage and shipping. For example, in FY 2009, S/CPR paid $496 in postage for
invitations to holiday receptions hosted by the Secretary. Some of the postage-related
expenditures were for shipping charges related to the acquisition of official gift inventory items.

       According to the Foreign Affairs Manual (FAM), 8 bureau and post personnel are
responsible for requesting funds for postage in their budgets. 9 The FAM 10 also states that
“postage for mail originating at domestic offices is funded by the office’s parent bureau.” In
addition to the FAM, RM’s Domestic Representation Guidelines for FYs 2008 and 2009
prohibited bureaus and offices from charging postage expenses to the K Fund, requiring that
bureaus and offices use program funds instead.

         According to K Fund officials, S/CPR, which is responsible for the gift program, had a
small budget and did not have sufficient program funds to pay for the shipping costs associated
with these acquisitions. Therefore, because the shipping costs were associated with K Fund-
related acquisitions, S/CPR charged the K Fund for the shipping costs. Additionally, the Under
Secretary for Management indicated that the FAM and Domestic Representation Guidelines do
not apply to postage used for activities related to the Secretary, but the Department has not
developed any written guidelines about whether the K Fund could be used for postage for
activities related to the Secretary.

        Because the Department does not have guidance on the use of the K Fund for postage
related to activities for the Secretary, OIG based its analysis of the allowability of postage-
related expenditures on existing Department guidelines. Using those guidelines, OIG questioned
the use of the K Fund for postage and shipping expenditures. Specific guidelines on fund usage

8
  14 FAM 737, “Responsibility for Official Mail and Correspondence Handling.” 

9
  Although not specifically mentioned in the guidance, OIG concluded that the intent of this requirement would

include shipping charges.

10
   14 FAM 736.1, “Funding for Domestic Mail.”


                                                   10
                                              UNCLASSIFIED
                                              UNCLASSIFIED


are necessary to ensure that all Department employees are aware of the purpose of certain funds
and how they can be used. Therefore, the Department should develop separate guidelines that
are applicable to activities related to the Secretary.

           Retirement Function

         During its testing of sample expenditures from the K Fund, OIG found that the
Department had spent $1,500 from the K Fund appropriation to pay for renting linens used
during a function hosted by the Secretary for a group of retired Department employees to
recognize their Federal service. According to Department officials, this is an annual event that
acknowledges the service of individuals who retired from the Department more than one year
prior to the event. The K Fund office provided a 1999 opinion 11 from the Office of the Legal
Adviser on the use of the K Fund for expenditures related to retirement parties. The opinion
states that a “good argument might be made that the retirement event may be funded from a
representation account, as it has apparently been held for at least a decade, and could reasonably
be characterized as a ‘traditional function.’” The opinion also states that “proper use of official
representation funds is largely a matter of Congressional intent.” The opinion then concludes
that while the K Fund is “largely available for unanticipated entertainment events, its usage has
evolved with Congressional acquiescence” to cover a broad range of domestic representation
events hosted by high-level Department officials and that therefore the K Fund could be used to
pay for expenditures related to retirement parties, “provided the items covered are consistent
with the Department’s internal guidelines for the use of the K Fund.”

        While the Department has some general guidance in the FAM 12 on entertainment hosted
by the Secretary, it does not specifically address the types of expenditures that are allowed or
that are not allowed at such functions. The Department has developed Domestic Representation
Guidelines for events funded by the K Fund. These guidelines prohibit the use of the K Fund for
employee retirement parties. Even though prohibited by the Domestic Representation
Guidelines, the K Fund office concluded that using the K Fund for costs associated with
retirement functions was allowable because the guidelines apply only to bureau-level
representation events and the restriction therefore does not apply to events hosted by the
Secretary. Because the legal opinion indicates that the K Fund should be used only for
representation items that are consistent with internal guidelines and the only guidelines that were
provided to OIG prohibit the use of the K Fund for retirement parties, OIG questioned whether
costs of $1,500 to pay for renting linens were allowable. The Department should develop
specific guidance for domestic representation events that include functions hosted by high-level
Department officials, including the Secretary.

           Other Miscellaneous Expenditures

       During its testing of sample items, OIG identified two small dollar value items, totaling
$240, that it concluded were unallowable. Specifically, OIG found that one invoice contained a
duplicate charge for $14 that was paid unnecessarily and another instance in which the K Fund
was used to pay $226 for engraving holiday cards for senior-level officials. Overseas

11
     Office of the Legal Adviser Memorandum, “K Fund and Retirement Day,” Dec. 8, 1999.
12
     2 FAM 1434.2(a), “Entertainment by the Secretary and Acting Secretary.”

                                                   11
                                              UNCLASSIFIED
                                               UNCLASSIFIED


representation guidelines allow for purchases of holiday cards for foreign officials. However,
the domestic representation guidelines do not allow for purchases of holiday cards. Therefore,
based on its analysis of existing guidelines, OIG determined that the K Fund should not have
been used to fund the purchase of holiday cards as a domestic representation amount. While
these items should not have been funded by the K Fund, these questioned items were considered
to be insignificant in value.

Questioned Expenditures Identified by Analytical Procedures

        In addition to testing a sample of the K Fund expenditures for FYs 2008 and 2009, OIG
also questioned $709,000 in expenditures by performing analytical procedures. Specifically,
OIG found that the K Fund office had spent $3,000 in FY 2009 and about $318,000 in FY 2010
for a portion of a capital improvement, which was for an upgrade to the kitchen that services the
Diplomatic Reception Rooms. Also, the K Fund office had used the K Fund for overseas
representation expenditures of approximately $388,000 during FYs 2008 and 2009. OIG
concluded that these costs could have been funded using the Department’s program funds and
questioned whether the expenditures were an appropriate use of the K Fund.

           Capital Improvement

        The K Fund office paid about $321,000 for a portion of an upgrade to the kitchen that
services the Diplomatic Reception Rooms on the eighth floor of the Department’s main building
in Washington, DC. This kitchen is used for events hosted by the Secretary, other high-ranking
officials from the Department as well as from other U.S. Government agencies, and international
organizations.

        According to the FAM, 13 the A Bureau, Deputy Assistant Secretary for Operations,
Office of Facilities Management Services (A/OPR/FMS), is responsible for operating and
maintaining domestic Department facilities. An A Bureau official stated that A/OPR/FMS
receives an operational budget and a capital improvement budget to operate and maintain the
infrastructure of the buildings used by the Department. In addition, some bureaus and offices
provide funds to A/OPR/FMS for discretionary renovations. The official also stated that because
A/OPR/FMS did not have sufficient funds to pay for the entire kitchen renovation the K Fund
was used to pay for a portion of the costs of the upgrade.

        The Under Secretary for Management concluded that it was appropriate to use the K
Fund to pay the costs associated with the upgrade because the kitchen is used for events that are
appropriately funded by the K Fund, such as functions held by the Secretary for foreign officials.
The Under Secretary for Management also considered the kitchen to be “internal space” for the
Secretary, similar to a bureau’s office space. Since the K Fund is used to support the Secretary’s
official functions, the Under Secretary concluded that it could be used for discretionary
renovations to the kitchen. Additionally, according to a K Fund official, the Department
concluded that it was appropriate to renovate the kitchen in order to reduce the use of caterers
(the kitchen was renovated from a prep kitchen to a fully functioning facility in which meals
could be prepared), which is more expensive than preparing meals on site.
13
     1 FAM 213.6, “Office of Facilities Management Services.”

                                                    12
                                               UNCLASSIFIED
                                              UNCLASSIFIED

       OIG disagrees that using the K Fund for expenditures to renovate the kitchen was an
appropriate use of the K Fund. The use of the kitchen facility is not limited to the Secretary.
The kitchen is also used for functions in the Diplomatic Reception Rooms that can be hosted by
various groups. In addition, the Department receives specific funding for capital projects for its
domestic facilities.

        Domestic Representation Funds Sent to Overseas Posts

        OIG found that seven overseas posts were using representation funds from the K Fund.
A K Fund official stated that during FYs 2008 and 2009, the Under Secretary for Management
approved the use of domestic representation funds at seven overseas posts 14 that receive a large
number of visitors annually, such as American businessmen and members of Congress. The
official further stated that the posts use representation funds to host these official visitors and that
because these posts are “expensive,” additional representation funds were provided from the K
Fund because funds were available. Furthermore, the Under Secretary for Management stated
that the practice of giving a limited number of overseas posts additional representation funds has
been in place for over 35 years, that the funds only are to be used for the Ambassador’s
representation expenses, and the amounts distributed to the posts are estimates based on amounts
the posts spent in the past. However, OIG found that the posts received these domestic
representation funds on a quarterly basis; the K Fund had not provided the additional funds to the
seven posts because the posts had used all the funds allotted for their annual representation
budgets. Posts that received funds for representation events from the K Fund and the amounts
the posts received are shown in Table 4.

      Table 4. Representation Expenditures From the K Fund by Post
                                    FY 2008                 FY 2009
               Post               Expenditures            Expenditures                  Total
      Berlin                                $23,317                $25,018                      $48,335
      London                                $25,000                $25,000                      $50,000
      Madrid                                $25,000                $25,000                      $50,000
      Moscow                                $25,000                $25,287                      $50,287
      Paris                                 $25,000                $25,530                      $50,530
      Rome                                  $25,000                $20,428                      $45,428
      Tokyo                                $56,250                 $37,016                     $93,266
      Total                               $204,567                $183,279                    $387,846
        Source: Prepared by OIG based on the K Fund Congressional expenditure reports.


       The authorizing legislation 15 allows the K Fund to be used for official functions outside
the United States that “are not otherwise covered by amounts appropriated for representation
allowances.” The Department receives separate Congressional funding for overseas

14
   For FY 2010, because of budget constraints within the K Fund and policy considerations, additional
representation funding was provided only to Embassy Moscow, according to a K Fund official.
15
   22 U.S.C. § 2671.

                                                   13
                                              UNCLASSIFIED
                                            UNCLASSIFIED


representation activities. It is unclear from the K Fund’s authorizing legislation under which
specific circumstances it is allowable to provide additional representation funds to posts from the
K Fund. OIG questions whether the decision to provide additional funds should be based solely
on the availability of funds in the K Fund rather than on a consideration of the post’s need for
additional representation funding. To ensure that the Department complies with the authorizing
legislation, clarification is needed concerning under what circumstances K Funds can be
provided to posts for overseas representation activities.

Unsupported Expenditures

        OIG was unable to determine whether 19 expenditures for evacuations were for allowable
purposes because the Department did not provide sufficient documentation for certain evacuation
expenditures incurred by posts. In addition, the Department did not provide sufficient support
for six Presidential delegation expenditures. OIG also identified seven travel-related
expenditures for which support was not provided or was inadequate. However, OIG determined
that three of the seven travel expenditures were for allowable purposes. The number and dollar
amounts of the unsupported expenditures for which documentation was not available or was not
adequate are shown in Table 5.

        Table 5. Unsupported Expenditures by Category
                                            Number
         Expenditure Category             Unsupported                Amount Unsupported
        Evacuation Payments                               19                       $715,527
        Presidential Delegations                           6                               $13,868
        Presidential, Vice
        Presidential, and
        Congressional Travel                               4                                $4,961
        Secretary and Deputy
        Secretary’s Travel                                 3                                  $485
        Total                                             32                             $734,840
         Source: Prepared by OIG based on the results of its testing of K Fund expenditures.

         Note: Totals may not add because of rounding; additionally, a single expenditure chosen for testing may 

         have allowable, unallowable, and/or unsupported portions, since an individual expenditure may have 

         multiple invoices.


       Evacuations

        The Department was unable to provide sufficient supporting documentation for
19 evacuation expenditures, totaling approximately $715,500 and representing 26.5 percent of
the $2.7 million of evacuation expenditures tested. These expenditures were incurred by
overseas posts for, among other things, establishing and operating Operation Centers to organize
and facilitate evacuations and for purchasing emergency food and water supplies.

        While the Department sends an authorized departure cable to evacuating posts, which
includes instructions for the evacuation, the cable does not include clear guidance requiring posts
to provide support for these types of evacuation expenditures to the K Fund office. The K Fund
office obtains information from GFMS relating to the evacuation expenditures incurred by
                                                 14
                                            UNCLASSIFIED
                                              UNCLASSIFIED


overseas posts, which it needs to prepare the quarterly reports to Congress. However, the
information in GFMS does not necessarily include sufficient details to determine whether the
expenditures were made in accordance with the K Fund legislation.

       OIG appreciates that evacuations occur on short notice and that obtaining complete
supporting documentation may not always be feasible. However, the K Fund office is
responsible for ensuring that expenditures from the K Fund are used in accordance with the
authorizing legislation. Without a requirement for posts to provide all available supporting
documentation for evacuation expenditures to the K Fund office for review, the K Fund office
cannot fulfill its responsibilities as steward of the K Fund.

           Presidential Delegations

       Despite OIG’s requests, the Department was unable to provide sufficient documentation
to support six Presidential delegation expenditures from FYs 2008 and 2009, totaling $13,868
and representing 7 percent of the $205,442 of Presidential delegation expenditures tested. These
expenditures were incurred by overseas posts for, among other things, delegate lodging and
miscellaneous support costs such as locally employed staff overtime, vehicle rentals, and cell
phones. The Department did not provide an explanation to OIG as to why this documentation
could not be provided.

         Had posts complied with instructions provided by S/CPR, which require posts to
“provide an itemized list of all expenses with original receipts . . . not more than 30 days after the
visit” to S/CPR, the supporting documentation should have been more readily available to
support the sampled items. As discussed in the section “Presidential Delegation Expenditures”
in this report, K Fund and S/CPR officials stated that posts do not always provide the support for
their expenditures despite the clear instructions to do so.

           Travel

        OIG also identified seven travel-related expenditures, totaling $5,446, for which the
Department did not provide adequate support. Four of these expenditures, totaling $4,961, were
related to Presidential travel. For instance, during Presidential travel, someone used an ATM
card to obtain $200 in cash, but no record was available on how the money was used or why it
was appropriate to charge the amount to the K Fund.

        OIG also identified three expenditures for the Secretary’s travel that were supported with
handwritten, not original, receipts. These expenditures, totaling $485, were for a meal and
luggage handling fees, all costing over $75 each. According to the Federal Travel Regulation, 16
an individual must provide receipts for any expense costing over $75. The Federal Travel
Regulation also states that convenience is not a consideration for whether a receipt is obtained.
Although adequate support was not provided, OIG determined that these travel-related
expenditures were allowable. Once OIG brought this issue to the attention of officials in the
Executive Office of the Executive Secretariat, the officials stated that they would, in the future,
have staff obtain hotel-issued receipts for the luggage handling fees.
16
     Federal Travel Regulation, ch. 301, “Temporary Duty (TDY) Travel Allowances.”

                                                   15
                                              UNCLASSIFIED
                                               UNCLASSIFIED




Controls Over K Fund Expenditures Could Be Improved

       In its 2000 audit report, 17 OIG recommended that the Department prepare a policies and
procedures manual. During this current audit, OIG found that the Department had developed
some guidance on K Fund activities. For instance, the K Fund office had developed the
Domestic Representation Guidelines to assist Department officials in carrying out their official
representation responsibilities. Furthermore, individual offices have developed additional
procedures related to K Fund activities. For example, in March 2009, the A Bureau established
procedures for advances and payments for Presidential and Vice Presidential travel.

        While the existing policies and procedures bring some clarity to the K Fund process, OIG
found that the K Fund office faces challenges in ensuring that K Fund expenditures are valid and
supported by adequate documentation. Specifically, although RM has developed some policies
and procedures, additional guidance is needed for some K Fund activities. For example, the
FAM 18 provides general information on official entertainment by the Secretary, but it does not
provide the same level of detail as the Domestic Representation Guidelines for entertainment
hosted below the Secretary’s level. The Department should have specific guidance for
representation functions hosted by the Secretary, including a list of items for which the K Fund
may not be used. Guidance is also needed for the use of the K Fund for postage costs incurred
by S/CPR. In addition to guidance on activities related to the Office of the Secretary, guidance is
also needed to ensure that supporting documentation for certain types of evacuation expenditures
is provided to the K Fund office for review.

        The K Fund office has a process to review unclassified expenditures. When bureaus and
offices submit information on expenditures to the K Fund office, the K Fund office assesses
expenditures to ensure that they are allowable. If an issue is identified, the K Fund office will
follow up with the bureau or office responsible for the expenditure or will inform the bureau or
office that the expenditure is not allowed and suggest that other types of funding be used. For
instance, in October 2008, the K Fund office notified a bureau that it could not use the K Fund
for expenditures related to an awards ceremony.

        However, the K Fund office does not receive support for all expenditures, even when
existing guidelines require posts to provide timely supporting documentation. Unless users of
the K Fund comply with established policies and procedures, the K Fund office will be unable to
ensure that the funds are used for allowable items and that the items acquired are sufficiently
supported. A change in policy would assist the K Fund office in obtaining supporting
documentation from posts for expenditures in a timely manner.

Inadequate Controls Could Lead to Funds Being Unavailable for Emergencies or Being
Used Inappropriately

       Although the K Fund is not significant to total Department financing, the K Fund could
be vulnerable to theft or abuse and to allegations of misuse. Limited adherence to procedures,

17
     (00-FM-011, Mar. 2000).

18
     2 FAM 1434, “Arranging for Official Entertainment.”


                                                    16
                                               UNCLASSIFIED
                                        UNCLASSIFIED


such as for overseeing and supporting expenditures, increases the likelihood that improper
payments could be made or that waste, fraud, or abuse could occur and not be detected. Without
proper oversight and adherence to RM guidance, there is no assurance that the K Fund will be
used for allowable expenditures.

Conclusion

        The proper stewardship of Federal resources is an essential responsibility of agency
managers and staff. Management is responsible for developing and maintaining effective
internal control, including establishing an effective organization and developing policies and
procedures, to ensure that managers use their limited resources efficiently and effectively and in
compliance with laws and regulations. Because of the unique nature of the K Fund and its
decentralized operations among various bureaus and offices, clear and complete guidance is
necessary to avoid confusion and erroneous use of the K Fund. In addition, it is essential that the
K Fund office monitor and ensure that K Fund users comply with existing policies.

       Recommendation 1. OIG recommends that the Bureau of Resource Management
       implement a policy requiring posts to reimburse the Emergencies in the Diplomatic and
       Consular Service appropriation for any expenditures that are unsupported by original
       receipt within 30 days after the completion of a Presidential delegation visit and then
       notify posts of this change of policy in the notification cable for future Presidential
       delegations.

       Management Response: RM stated it will “review whether a policy should be
       implemented” for reimbursing unsupported expenses. However, it disagreed that posts
       should provide original receipts to RM. RM further stated that because posts “are
       responsible for certifying disbursements,” they should maintain the original receipts and
       that their providing copies of supporting documentation to RM “is sufficient for
       recordkeeping purposes.”

       OIG Reply: As noted in the report, posts are not always providing documentation that
       supports expenditures related to Presidential delegations to the K Fund office in a timely
       manner. Providing this documentation is an essential control that will assist the K Fund
       office to ensure that the K Fund is used for allowable items. The Department needs to
       implement a process to ensure that posts provide documentation in a timely manner. OIG
       concluded that developing a policy requiring posts to reimburse the K Fund when
       expenditures are unsupported after 30 days would be useful. However, OIG accepts that
       other alternatives may also successfully address the control deficiency and agrees with
       RM that it would be sufficient for posts to provide copies of supporting documentation
       rather than original receipts. OIG’s recommendation related to original receipts was
       based on the K Fund office’s current policy.

       OIG considers the recommendation unresolved. The recommendation can be closed
       when OIG reviews and accepts documentation showing that the Department has
       implemented a policy that provides sufficient incentive for posts to submit supporting



                                             17
                                        UNCLASSIFIED
                                UNCLASSIFIED


documentation in a timely manner to the K Fund office for expenditures related to
Presidential delegations.

Recommendation 2. OIG recommends that the Bureau of Resource Management
develop specific guidance for postage used for activities related to the Secretary of State
and for domestic representation events hosted by the Secretary of State similar to
guidance contained in the Domestic Representation Guidelines provided to bureaus and
offices.

Management Response: RM stated it will “review current guidance” for certain postage
expenditures “to determine whether further guidance is necessary.”

OIG Reply: OIG found that the Department was not consistently using the K Fund for
postage expenditures and concluded that additional guidance was needed. In addition,
the Department, in its response, did not indicate whether it agreed or disagreed that a
policy was needed for domestic representation events hosted by the Secretary. To avoid
confusion among Department employees who are involved in K Fund activities, RM
needs to provide clear guidance on activities related to the Secretary, just as it does for
bureau-related activities.

OIG considers the recommendation unresolved. The recommendation can be closed
when OIG reviews and accepts documentation showing that the Department has issued
guidance for postage used for activities related to the Secretary and for domestic
representation events hosted by the Secretary.

Recommendation 3. OIG recommends that the Bureau of Resource Management (RM)
obtain an opinion from the Office of the Legal Adviser as to whether the Emergencies in
the Diplomatic and Consular Service appropriation (K Fund) should have been used to
upgrade the kitchen that services the Diplomatic Reception Rooms. If the opinion does
not support the use of the K Fund for this purpose, RM should coordinate with the
Bureau of Administration to reimburse the K Fund from program funds appropriated for
domestic capital improvements.

Management Response: RM stated that it “works closely with the Office of the Legal
Advisor to ensure that the Department’s use of the K Fund is legally permissible, and will
continue to seek legal advice when necessary.”

OIG Reply: During the audit and in its response to the draft report, RM did not provide
any evidence demonstrating that the Office of the Legal Adviser had opined on the use of
the K Fund to upgrade a kitchen. Therefore, OIG considers the recommendation
unresolved. The recommendation can be closed when OIG receives documentation
showing that the Department has provided a legal opinion on the use of the K Fund to
upgrade the kitchen that services the Diplomatic Reception Rooms.

Recommendation 4. OIG recommends that the Bureau of Resource Management obtain
an opinion from the Office of the Legal Adviser on the specific circumstances under

                                     18
                                UNCLASSIFIED
                                       UNCLASSIFIED


       which additional representation funds can be provided to overseas posts from the
       Emergencies in the Diplomatic and Consular Service appropriation.

       Management Response: RM stated that it “works closely with the Office of the Legal
       Advisor to ensure that the Department’s use of the K Fund is legally permissible, and will
       continue to seek legal advice when necessary.”

       OIG Reply: During the audit and in its response to the draft report, RM did not provide
       any evidence demonstrating that the Office of the Legal Adviser had opined on what
       circumstances were necessary for the K Fund to be used for overseas representation
       events. Therefore, OIG considers the recommendation unresolved. The recommendation
       can be closed when OIG receives documentation showing that the Department has
       provided a legal opinion on the specific circumstances under which additional
       representation funds can be provided to overseas posts from the K Fund.

       Recommendation 5. OIG recommends that the Bureau of Resource Management
       implement a policy requiring posts to provide an itemized list of all post-incurred
       evacuation expenditures, including receipts, not more than 60 days after the termination
       of an evacuation and ensure that posts are notified of this policy change in the authorized
       departure cable.

       Management Response: RM stated that it did not concur with the recommendation that
       posts should be required to provide receipts for evacuation expenditures. RM further
       stated that posts certify vouchers prior to payment and should maintain the supporting
       documentation and indicated that an itemized list of expenditures would be sufficient.

       OIG Reply: Although OIG agrees that posts certify vouchers, the K Fund office is the
       proper steward of the K Fund and therefore needs sufficient information to ensure that
       posts are using the K Fund for allowable expenditures. During the audit, OIG concluded
       that an itemized list, with receipts, was an important control that needs to be
       implemented.

       OIG considers the recommendation unresolved. The recommendation can be closed
       when OIG reviews and accepts documentation showing that the Department has
       implemented a policy requiring posts to provide an itemized list, including receipts, of
       post-incurred evacuation expenditures.

Finding B. Reports to Congress Did Not Include All Expenditures
        OIG found that the quarterly reports on K Fund expenditures to Congress did not include
all expenditures that were reported by bureaus or offices because the bureaus and offices were
not submitting the expenditures in a timely manner. In addition, the K Fund office had
inadvertently reported certain evacuation expenditures twice because of confusion about which
expenditures were included in the amounts reported by RM/GFS. During the audit, officials
from the K Fund office and RM/GFS agreed on who would report which evacuation


                                            19
                                       UNCLASSIFIED
                                        UNCLASSIFIED


expenditures, but the agreement needs to be formalized. Without accurate quarterly reports, it is
more difficult for Congress or Department management to properly oversee the K Fund.

Some Expenditures Were Not Included in Reports

        OIG found that some K Fund expenditures in FYs 2008 and 2009 were not reported to
Congress. Specifically, 33 expenditures, totaling $16,096, were not included in the quarterly
reports to Congress. For instance, the K Fund office did not include an expenditure for a lunch
costing $1,120 provided during a meeting with Israeli officials. The K Fund office also did not
report an $893 dinner expense incurred during a conference on consular issues. The K Fund
office stated that 32 of the expenditures were not included because the responsible bureaus did
not submit the data to the K Fund office in time for it to include the data in the quarterly report
and the K Fund office did not include the information in subsequent reports. The K Fund office
could not cite a specific reason as to why the one remaining expenditure had not been included in
a quarterly report.

Certain Evacuation Expenditures Were Reported Twice

        OIG also found that certain types of evacuation-related expenditures were being reported
twice. To identify evacuation expenditures incurred during a quarter, the K Fund office requests
data from RM/GFS on SEA payments and obtains information from GFMS on overseas charges
incurred by posts. RM/GFS provides a spreadsheet of evacuation charges and collections to the
K Fund office. The spreadsheet provided by RM/GFS each quarter included SEA payments and
the overseas charges that were included in GFMS. The K Fund office was not aware that the
spreadsheet included the overseas charges. As a result, the K Fund office inadvertently included
certain overseas evacuation expenditures twice in the quarterly Congressional reports.

Improved Process for Reporting Information and Coordination With RM/GFS Is Needed

         The K Fund office has developed guidance on reporting expenditures by bureaus and
offices. Account managers are required to update the Representation Reports database and
provide a copy of an expenditure report to the K Fund office no later than 15 days after the end
of each quarter. The K Fund office will not provide funding for the next quarter to the bureau or
office until the report is received and verified. OIG concluded that the guidance was sufficient
for users of the K Fund, although OIG found instances where bureaus and offices did not adhere
to this guidance.

        When bureaus and offices did not submit the expenditure information timely, the K Fund
office did not have a process in place to identify expenditures from prior periods that had been
reported to the K Fund office after the required due date and report those in the next quarterly
report to Congress. Even if the items are not reported in the correct quarter, it is essential for
Congress to be notified of all expenditures from the K Fund.

        The duplicate reporting of certain evacuation expenditures occurred because the K Fund
office had not sufficiently coordinated with RM/GFS, which was responsible for tracking the
costs of certain types of evacuation payments. After identifying this issue, OIG facilitated a

                                             20
                                        UNCLASSIFIED
                                       UNCLASSIFIED


meeting between officials of the K Fund office and RM/GFS to discuss the duplicate reporting
and agree on reporting responsibilities. The K Fund office provided RM/GFS with a copy of the
quarterly report to Congress so RM/GFS could have a better understanding of how evacuation
expenditures are reported. As a result of these discussions, both parties have a better
understanding of their respective responsibilities, and the K Fund office should be able to ensure
that these expenditures are not reported twice in future reports to Congress. OIG acknowledges
the quick action taken by RM to address the issue; however, the K Fund office should formalize
the agreement on reporting these evacuation expenditures with RM/GFS.

Inaccurate Reports Impair K Fund Oversight

        Although the number of inaccuracies identified was small, the K Fund office should
ensure that the reports to Congress are accurate and complete. These reports allow both the
Department and Congress to monitor the K Fund expenditures, which is a key control to reduce
the risk of potential abuse created by the K Fund’s flexible spending authority. In addition,
without accurate reports, Congress may be unable to determine whether the amounts being
requested by the Department are sufficient to meet the unforeseen emergency requirements in the
conduct of foreign affairs.

       Recommendation 6. OIG recommends that the Bureau of Resource Management
       prepare written guidance establishing how to report Emergencies in the Diplomatic and
       Consular Service appropriation expenditures received after the quarterly report has been
       sent to Congress.

       Management Response: RM agreed with this recommendation.

       OIG Reply: OIG considers the recommendation resolved, pending further action. This
       recommendation can be closed pending OIG’s review and acceptance of RM’s written
       guidance on how RM will report K Fund expenditures received after the quarterly report
       has been sent to Congress.

       Recommendation 7. OIG recommends that the Bureau of Resource Management
       formalize the agreement developed in conjunction with Global Financial Services in
       Charleston, SC, on how to report evacuation expenditures.

       Management Response: RM agreed with the recommendation, stating that it is “in the
       process of documenting procedures for generating the report.”

       OIG Reply: OIG considers the recommendation resolved, pending further action. This
       recommendation can be closed pending OIG’s review and acceptance of the procedures
       RM is documenting for generating the report on evacuation expenditures.




                                            21
                                       UNCLASSIFIED
                                        UNCLASSIFIED



                                 List of Recommendations


Recommendation 1. OIG recommends that the Bureau of Resource Management implement a
policy requiring posts to reimburse the Emergencies in the Diplomatic and Consular Service
appropriation for any expenditures that are unsupported by original receipt within 30 days after
the completion of a Presidential delegation visit and then notify posts of this change of policy in
the notification cable for future Presidential delegations.

Recommendation 2. OIG recommends that the Bureau of Resource Management develop
specific guidance for postage used for activities related to the Secretary of State and for domestic
representation events hosted by the Secretary of State similar to guidance contained in the
Domestic Representation Guidelines provided to bureaus and offices.

Recommendation 3. OIG recommends that the Bureau of Resource Management (RM) obtain
an opinion from the Office of the Legal Adviser as to whether the Emergencies in the Diplomatic
and Consular Service appropriation (K Fund) should have been used to upgrade the kitchen that
services the Diplomatic Reception Rooms. If the opinion does not support the use of the K Fund
for this purpose, RM should coordinate with the Bureau of Administration to reimburse the K
Fund from program funds appropriated for domestic capital improvements.

Recommendation 4. OIG recommends that the Bureau of Resource Management obtain an
opinion from the Office of the Legal Adviser on the specific circumstances under which
additional representation funds can be provided to overseas posts from the Emergencies in the
Diplomatic and Consular Service appropriation.

Recommendation 5. OIG recommends that the Bureau of Resource Management implement a
policy requiring posts to provide an itemized list of all post-incurred evacuation expenditures,
including receipts, not more than 60 days after the termination of an evacuation and ensure that
posts are notified of this policy change in the authorized departure cable.

Recommendation 6. OIG recommends that the Bureau of Resource Management prepare
written guidance establishing how to report Emergencies in the Diplomatic and Consular Service
appropriation expenditures received after the quarterly report has been sent to Congress.

Recommendation 7. OIG recommends that the Bureau of Resource Management formalize the
agreement developed in conjunction with the Global Financial Services in Charleston, SC, on
how to report evacuation expenditures.




                                             22
                                        UNCLASSIFIED
                                              UNCLASSIFIED



                                                                                         Appendix A

                                        Scope and Methodology
       In accordance with the United States Code (U.S.C.), 1 which requires the Office of
Inspector General (OIG) to conduct periodic audits of the Department of State’s (Department)
emergency expenditures, OIG conducted this audit to determine whether expenditures from the
Emergencies in the Diplomatic and Consular Service appropriation (K Fund) were made in
compliance with applicable provisions of the Code. This audit was also performed to provide
Government managers, Congress, and the public with information regarding the Department’s K
Fund expenditures.

       OIG conducted fieldwork for this audit from September 2010 to February 2011 at the
following Washington, DC, offices: the K Fund office; the Bureau of Administration (A
Bureau), Financial Management Division; the Presidential Travel Support unit within the A
Bureau; Office of the Secretary of State, Chief of Protocol (S/CPR); and the Office of the
Secretary of State, Executive Secretariat, Executive Office. OIG also obtained information from
the Bureau of Resource Management, Global Financial Services in Charleston, SC (RM/GFS).

        OIG conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that OIG plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for the findings and conclusions
based on the audit objective. OIG believes that the evidence obtained provides a reasonable
basis for the findings and conclusions based on the audit objective.

         After the draft audit report was issued, OIG met with the Under Secretary for
Management and K Fund officials on May 11, 2011. At the request of the Under Secretary, OIG
extended the fieldwork until June 13, 2011, to allow the K Fund office additional time to obtain
supporting documentation for expenditures related to evacuations, Presidential delegations, and
other miscellaneous expenditures from posts and RM/GFS. In response to a request for the
supporting documentation related to evacuations, RM/GFS officials suggested that OIG make a
site visit to better understand the evacuation process. OIG told the officials that based on
telephone discussions, the team sufficiently understood the general process for obligating and
expending evacuation-related expenditures from the K Fund for the purposes of this audit. OIG
also reiterated the need for documentation to support the expenditures made. No additional
documentation was provided.

        To obtain background for the audit, OIG researched and reviewed legislative
requirements related to the K Fund, Government Accountability Office guidance, Office of
Management and Budget circulars, and the Department’s Foreign Affairs Manual and Foreign
Affairs Handbook. OIG also reviewed Department guidance related to domestic representation
expenditures; Presidential, Vice Presidential, and high-ranking official travel; Secretary and
Deputy Secretary travel; official gifts; official visits; and Presidential delegations. In addition,



1
    22 U.S.C. § 2671, “Emergency expenditures.”

                                                   23
                                              UNCLASSIFIED
                                             UNCLASSIFIED


OIG reviewed and analyzed OIG audit and inspection reports to identify information relating to
K Fund issues that had been reported previously.

        OIG interviewed Department officials to obtain an understanding of the procedures for
approving and using the K Fund for expenditures and the nature of any internal reviews. OIG
also gained an understanding of the evacuation process; the process related to general
entertainment by the Secretary; and the processes used for travel for the President, the Vice
President, the Secretary, and the Deputy Secretary.

         OIG obtained the Department’s K Fund quarterly reports to Congress for FYs 2008 and
2009, which should include all K Fund expenditures for that period, and also obtained
information from the K Fund office’s Representation Reports database. OIG used the
information obtained from the Congressional reports and the K Fund office’s database to develop
a sampling methodology to test K Fund expenditures. (See the section “Detailed Sampling
Methodology and Results” in this appendix for more details.) OIG reviewed supporting
documentation for a selected sample of expenditures in several offices, including the K Fund
office; the A Bureau, Financial Management Division; and S/CPR. In addition to testing the K
Fund expenditures, OIG also performed analytical procedures on expenditures made during FYs
2008 and 2009.

Prior OIG Reports

        Between 1990 and 2000, OIG issued three audit reports relating to the Department’s K
      2
Fund. In the 2000 report, OIG identified expenditures that may not have been in compliance
with the law. In addition, the report noted that the Department did not prepare timely or accurate
quarterly reports to Congress. OIG also found that the decentralized structure of the K Fund
resulted in operational inefficiencies and exacerbated other internal control weaknesses in K
Fund checking accounts, obligations, evacuations, and inventory. The report also concluded that
the K Fund lacked written policies and an internal review capability. Significant
recommendations in the report were for the Department to submit accurate reports to Congress,
accurately record transactions in the accounting system, improve internal controls within various
K Fund activities, improve evacuations, and prepare a policies and procedures manual.

Use of Computer-Processed Data

        The audit team used computer-generated data from the Department during this audit.
OIG obtained information from the Global Financial Management System (GFMS) on the K
Fund’s expenditures during FYs 2008 and 2009. OIG determined that GFMS did not record
specific expenditures for all K Fund categories; instead, it included lump-sum transfers to bank
accounts maintained by bureaus and offices. Therefore, OIG did not rely on GFMS information
during the audit.

2
 Operations and Expenditures From the Appropriation for Emergencies in the Diplomatic and Consular Service
(00-FM-011, Mar. 2000), Followup Audit of Expenditures in the Appropriation for Emergencies in the Diplomatic
and Consular Service (04-FM-014, Feb. 1994), and K Fund for Emergencies in the Diplomatic and Consular
Service (0-FM-009, Jan. 1990).


                                                  24
                                             UNCLASSIFIED
                                       UNCLASSIFIED


        OIG obtained information from the K Fund’s Representation Reports database, which
includes all unclassified expenditures. OIG used the information in this database to choose its
sample of unclassified expenditures. OIG tested the database during its fieldwork. In addition,
OIG obtained evacuation expense data from RM/GFS. OIG used the information in the
evacuation database to assist with the testing of evacuation-related expenditures. Issues
identified during fieldwork are detailed in the Audit Results section, Finding A, “Expenditures
Were Generally Allowable and Supported.” Other than the work described, OIG did not audit
the data from these systems.

Work Related to Internal Controls

        OIG performed steps to assess the adequacy of internal controls related to K Fund
expenditures. For example, OIG gained an understanding of the Department’s processes for
approving and using the K Fund. The OIG audit team also discussed issues identified during its
testing of K Fund expenditures with K Fund staff members to better understand the reasons for
the exceptions, which would highlight internal control issues. In addition, OIG gained an
understanding of the Department’s policies and procedures related to K Fund expenditures and
determined how the Department oversees these expenditures. OIG identified internal control
deficiencies during its audit of K Fund expenditures, as detailed in the Audit Results section.

Detailed Sampling Methodology and Results
       OIG’s sampling objective was to determine whether expenditures paid from the K Fund
were in compliance with the authorizing legislation.

Population

        OIG used the reports that the K Fund office provides to Congress to identify the target
universe or population (that is, the population intended to be covered). The K Fund office
reports the K Fund expenditures to Congress on a quarterly basis via two separate reports–one
unclassified and one classified. The K Fund office uses the Representation Reports database to
prepare the unclassified report and prepares the classified report manually. Consequently, the
overall population of K Fund expenditures for FYs 2008 and 2009 was, in effect, divided into
two subpopulations. OIG used the expenditures included in the Representation Reports database
to obtain the sampling frame (that is, the listing of all the sampling units) for the unclassified
subpopulation and the expenditures in the manually prepared Congressional report for the
sampling frame for the classified subpopulation.

       Unclassified Subpopulation

        The K Fund office maintains expenditures for the unclassified report in the
Representation Reports database. The data is entered into the database by a representative of the
office responsible for the expenditure. OIG had to remove three expenditures with zero balances
from the unclassified expenditure data to arrive at an overall subpopulation from which
unclassified expenditures could be sampled. The data for the unclassified reports is categorized
as shown in Table 1.

                                            25
                                       UNCLASSIFIED
                                            UNCLASSIFIED


Table 1. Unclassified Expenditures for FYs 2008 and 2009
                                                         Mean Amount       Percent of Total
   Expenditure          Amount of        Number of           per            Expenditure        Percent of Total
     Category          Expenditures     Expenditures     Expenditure          Amount            Expenditures
General
Entertainment             $3,137,965              799             $3,927                30.8               13.6
Representation            $2,070,100            3,649              $567                 20.3               62.2
Official Visits           $1,761,461              232             $7,593                17.3                4.0
Official Gifts            $1,809,995              896             $2,020                17.8               15.3
Presidential
Delegations                $820,212               152             $5,396                 8.1                2.6
Secretary and
Deputy Secretary’s
Travel                       $97,425                82            $1,188                 1.0                1.4
Presidential, Vice
Presidential, and
Congressional
Travel                     $477,120                 59            $8,087                 4.7                1.0
Total                   $10,174,277             5,869           $1,734              100.0                100.0
  Source: Prepared by OIG based on unclassified expenditures from Representation Reports database. 

  Note: Totals may not add because of rounding.


        Classified Subpopulation

        For the classified expenditures, the classified portion of the Congressional quarterly
report was used to verify the expenses provided by the K Fund office. OIG used modified
descriptions of these expenditures in its working papers (audit documentation) as well as this
report to have an unclassified report. In the quarterly report, the classified expenses are divided
into four categories, as shown in Table 2.

Table 2. Classified Expenditures for FYs 2008 and 2009
                                                                              Percent of
                                                         Mean Amount            Total           Percent of
 Expenditure          Amount of         Number of            per             Expenditure          Total
  Category           Expenditure       Expenditures      Expenditure           Amount          Expenditures
Evacuation
Payments               $2,737,640                  24           $114,068              11.4                20.7
Special
Investigations          $356,242                   43             $8,285                1.5               37.1
Confidential
Payments                $645,593                   24            $26,900                2.7               20.7
Rewards
Program               $20,354,693                  25           $814,188              84.5                21.6
Total                 $24,094,168                 116           $207,708             100.0               100.0
  Source: Prepared by OIG based on classified expenditures from the Congressional quarterly report.
  Note: Totals may not add because of rounding.




                                                 26
                                            UNCLASSIFIED
                                       UNCLASSIFIED



Sample Selection

        OIG used both random and judgment sampling. For the unclassified expenditures,
random sampling was employed utilizing categories or strata. The classified expenditures were
selected using judgment sampling.

       Selection of Unclassified Expenditures and Testing Results

        For the unclassified expenditures, OIG employed random sampled utilizing categories, or
strata. Analysis of the data for the seven categories provided to OIG disclosed that some of these
categories encompassed a large percentage of the total amount expended while accounting for a
relatively small percentage of total expenditures. For example, as shown in Table 1, the
unclassified expenditures for Official Visits accounted for only 4.0 percent of total expenditures
for FYs 2008 and 2009, but the amount expended for these expenditures was 17.3 percent of the
entire amount for that period. In addition, the mean amount per expenditure for this category
was $7,593, which was second among the seven categories. Conversely, the category
Representation had a greater percentage of expenditures than the amount expended, that is,
62.2 percent versus 20.3 percent, and had the lowest mean amount per expenditure, $567.
Consequently, stratification was used in the sampling to take advantage of this knowledge
obtained during preliminary work, enabling OIG to expend more audit resources on categories
such as Official Visits rather than on less significant categories such as Representation.

       Specifically, the sample size for the unclassified universe, as shown in Table 3, was 239.
OIG identified unallowable expenditures of $14,378 and unsupported expenditures of $19,314
from a sample of unclassified expenditures for FYs 2008 and 2009.




                                            27
                                       UNCLASSIFIED
                                               UNCLASSIFIED



Table 3. Results of Testing Unclassified Expenditures for FYs 2008 and 2009
                                                                        Specific Exceptions and Amounts

                                                            Number        Amount
 Expenditure        Total          Amount       Number      Unallow­      Unallow­    Number Un­      Amount Un­
  Category         Amount          Tested        Tested       able          able       supported       supported
General
Entertainment      $3,137,965        $91,371           33           6        $3,215               0              $0

Representation     $2,070,100         $1,689            5           0            $0               0              $0
Official Visits    $1,761,461       $646,884           70           3        $4,396               0              $0

Official Gifts     $1,809,995        $38,475           17           1          $232               0              $0
Presidential
Delegations          $820,212       $205,442           51           5        $6,519               6         $13,868
Secretary and
Deputy
Secretary’s
Travel                $97,425         $6,116            9           0            $0               3            $485
Presidential,
Vice
Presidential,
and
Congressional
Travel               $477,120       $460,206           54           1           $14               4          $4,961
Total             $10,174,277      $1,450,183          239           16      $14,378               13        $19,314
 Source: Prepared by OIG based on the results of its random sample.
 Note: Totals may not add because of rounding; additionally, a single expenditure chosen for testing may have
 allowable, unallowable, and/or unsupported portions, since an individual expenditure may have multiple invoices.

         Selection of Classified Expenditures and Testing Results

        For the classified expenditures, OIG used judgment sampling. Because this method uses
discretionary criteria to effect sample selection, OIG was able to use information obtained and
developed during its preliminary work to aid in making informed selections.

        Specifically, analysis of the classified expenditure data in Table 2 disclosed that the
overwhelming majority of the classified funds expended came from two of the four categories–
Evacuation Payments and Rewards Program. These two categories totaled 42.3 percent of the
expenditures while encompassing 95.9 percent of the dollars expended for FYs 2008 and 2009.
Consequently, OIG judgmentally sampled all the expenditures for Evacuation Payments and
Rewards Program, since the expenditures for the other two categories, Special Investigations and
Confidential Payments, accounted for only 4.2 percent in total of the expended funds for the two
fiscal years, which was an immaterial amount.

        As shown in Table 4, OIG selected for testing 24 Evacuation Payments expenditures and
25 Rewards Program expenditures, for a total of 49 expenditures for FYs 2008 and 2009. OIG
identified expenditures of $715,527 that were not available for review from a sample of
classified expenditures for FYs 2008 and 2009.


                                                    28
                                               UNCLASSIFIED
                                                UNCLASSIFIED



         Table 4. Results of Testing Classified Expenditures for FYs 2008 and 2009
                                                                        Specific Exceptions and Amounts

          Expenditure       Total        Amount         Number          Number                 Amount
           Category       Amount          Tested         Tested      Unsupported             Unsupported
         Evacuation
         Payments         $2,737,640    $2,737,640               24             19                  $715,527
         Special
         Investigations     $356,242              $0              0              0                         $0
         Confidential
         Payments           $645,593              $0              0              0                         $0
         Rewards
         Program         $20,354,693 $20,354,693                 25              0                        $0
         Total           $24,094,168 $23,092,333                 49             19                  $715,527
           Source: Prepared by OIG based on the results of its judgment sample.

Testing Methodology

       To determine the compliance of the expenditures sampled, OIG obtained and reviewed
the supporting documentation to include invoices, receipts of payment, and requests and
approvals for payment. OIG determined that the expenditure complied with the law if it
belonged to one of the following categories, which are included in the authorizing legislation: 3

         •	 The evacuation of U.S. Government employees, their dependents, and private U.S.
            citizens or third-country nationals when their lives are endangered by war, civil
            unrest, or natural disaster.
         •	 Visits by foreign chiefs of state or heads of government to the United States.
         •	 Travel of Presidential delegations at any inauguration or funeral of a foreign
            dignitary.
         •	 Travel of the President, the Vice President, or a member of Congress to a foreign
            country.
         •	 Travel of the Secretary within the United States and outside the United States.
         •	 Official representational functions of the Secretary and other principal Department
            officers.
         •	 Official functions outside the United States, the expenses for which are not otherwise
            covered by amounts appropriated for representational allowances.
         •	 Investigations and apprehension of groups or individuals involved in fraudulent
            issuance of U.S. passports and visas.
         •	 Gifts of nominal value given by the President, the Vice President, or the Secretary to
            a foreign dignitary.

       OIG also considered any expenditure related to the payment of rewards (Rewards
Program category) for information pertaining to international terrorism to be in compliance with
the law. This category is not included in the K Fund authorizing legislation. However, Congress

3
  OIG did not include repatriation loan assistance, which is authorized by the legislation, in the audit scope because
the Bureau of Consular Affairs is responsible for this activity and the associated expenditures are not included in the
K Fund Congressional reports.

                                                     29
                                                UNCLASSIFIED
                                       UNCLASSIFIED


includes funds for this program in the K Fund appropriation and authorizes the Department to
perform this function.

        For classified expenditures, because of the sensitive nature of the subject, OIG verified
that employees who received evacuation benefits (Evacuation Payments category) were assigned
to post at the time of the evacuation and that the post received approval for evacuation.
Additionally, for Rewards Program expenditures, OIG reviewed documentation, including
reports, letters, and invoices, to determine whether the appropriate approvals were obtained to
make the reward payment at the recommended amount.

         Based on its review of the documentation, OIG made preliminary determinations of
compliance, provided a list of questioned expenditures to K Fund staff, and requested that the
staff review the questioned expenditures and provide additional information to support the
questioned amounts. OIG considered the additional information provided, using the conditions
cited, to make a final determination of compliance.




                                            30
                                       UNCLASSIFIED
                                        UNCLASSIFIED



                                                                                       Appendix B
                                                       United States Department of State
                                                          Washington, D.C. 20520

                                                             July 27, 2011

MEMORANDUM


TO:            OIG – Harold W. Geisel

FROM:          RM/EX – Philip J. Schlatter /s/ Barnaby Walsh for PJS

SUBJECT:       Draft Report on Audit of Expenditures From the Department of State
               Emergencies in the Diplomatic and Consular Service Appropriation


RM appreciates the opportunity to comment on the subject Draft Report dated July 2011. RM’s
responses to the List of Recommendations on page 20 of the Draft Report are below.

Recommendation 1. OIG recommends that the Bureau of Resource Management implement a
policy requiring posts to reimburse the Emergencies in the Diplomatic and Consular Service
appropriation for any expenditures that are unsupported by original receipt within 30 days after
the completion of a Presidential delegation visit and then notify posts of this change of policy in
the notification cable for future Presidential delegations.

Response. RM will review whether a policy should be implemented for reimbursement of
unsupported expenses. However, RM disagrees with the recommendation that Posts should be
required to provide original receipts to RM. Posts are responsible for certifying all
disbursements and therefore should keep original receipts. Providing copies of supporting
documentation to RM is sufficient for record keeping purposes.

Recommendation 2. OIG recommends that the Bureau of Resource Management develop
specific guidance for postage used for activities related to the Secretary of State and for domestic
representation events hosted by the Secretary of State similar to guidance contained in the
Domestic Representation Guidelines provided to bureaus and offices.

Response. RM will review current guidance to determine whether further guidance is necessary
concerning the use of the K Fund to cover certain postage expenditures.

Recommendation 3. OIG recommends that the Bureau of Resource Management (RM) obtain
an opinion from the Office of the Legal Adviser as to whether the Emergencies in the Diplomatic
and Consular Service appropriation (K Fund) should have been used to upgrade the kitchen that
services the Diplomatic Reception Rooms. If the opinion does not support the use of the K Fund
for this purpose, RM should coordinate with the Bureau of Administration to reimburse the K
Fund from program funds appropriated for domestic capital improvements.

                                             31
                                        UNCLASSIFIED
                                       UNCLASSIFIED




Response. RM works closely with the Office of the Legal Advisor to ensure that the
Department’s use of the K Fund is legally permissible, and will continue to seek legal advice
when necessary.

Recommendation 4. OIG recommends that the Bureau of Resource Management obtain an
opinion from the Office of the Legal Adviser on the specific circumstances under which
additional representation funds can be provided to overseas posts from the Emergencies in the
Diplomatic and Consular Service appropriation.

Response. RM works closely with the Office of the Legal Advisor to ensure that the
Department’s use of the K Fund is legally permissible, and will continue to seek legal advice
when necessary.

Recommendation 5. OIG recommends that the Bureau of Resource Management implement a
policy requiring posts to provide an itemized list of all post-incurred evacuation expenditures,
including receipts, not more than 60 days after the termination of an evacuation and ensure that
posts are notified of this policy change in the authorized departure cable.

Response. RM does not concur with the requirement that post provide receipts for evacuation
expenditures. Because Posts have the responsibility to certify vouchers prior to disbursement of
funds, posts should retain all supporting documentation. A cable or email from post containing
an itemized list of expenditures is sufficient for keeping a record of such expenditures.

Recommendation 6. OIG recommends that the Bureau of Resource Management prepare
written guidance establishing how to report Emergencies in the Diplomatic and Consular Service
appropriation expenditures received after the quarterly report has been sent to Congress.

Response. RM concurs with this recommendation.

Recommendation 7. OIG recommends that the Bureau of Resource Management formalize the
agreement developed in conjunction with the Global Financial Services in Charleston, SC, on
how to report evacuation expenditures.

Response. RM concurs with this recommendation. RM/GFS is in the process of documenting
procedures for generating the report and has communicated with the RM/CFO as to the specific
costs that should be reported.




                                            32
                                       UNCLASSIFIED
                                UNCLASSIFIED



Major Contributors to This Report

Gayle Voshell, Director
Financial Management Division
Office of Audits

Mary Siatis, Audit Manager
Financial Management Division
Office of Audits

Karen Crue, Auditor
Financial Management Division
Office of Audits

Carol Hare, Auditor
Financial Management Division
Office of Audits

Stephanie Hwang, Auditor
Financial Management Division
Office of Audits




                                     33
                                UNCLASSIFIED
FRAUD, WASTE, ABUSE, OR MISMANAGEMENT
              of Federal programs

         and resources hurts everyone. 


        Call the Office of Inspector General 

                     HOTLINE 

                    202-647-3320 

                 or 1-800-409-9926 

          or e-mail oighotline@state.gov 

       to report illegal or wasteful activities.

               You may also write to
            Office of Inspector General
             U.S. Department of State
               Post Office Box 9778
               Arlington, VA 22219
            Please visit our Web site at:
                http://oig.state.gov

         Cables to the Inspector General
        should be slugged “OIG Channel”
            to ensure confidentiality.
